                             NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM


Date:          March 17, 2010

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFA/DIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFA/DGA)

From:          Michael R. Kuklok /s/
               Senior Audit Manager

Subject:       NSF OIG Report Number 10-1-008
               Audit of Effort Reporting System, University of Delaware

       Attached is the final report prepared by WithumSmith+Brown, PC, an independent public
accounting firm, on the audit of the payroll distribution and effort reporting system used by the
University of Delaware (Delaware) to support salary and wages charged to NSF grants. The
University’s responses to the draft report have been summarized after the recommendations for
each audit finding and our response have been provided to those comments. The full text of the
University’s responses is included as Appendix B to the audit report.

        The audit disclosed that Delaware has an established Federal grants management
program. However, our review of 30 sampled employees disclosed several internal control
weaknesses that Delaware needs to correct to ensure proper implementation and oversight of its
effort reporting system. Specifically, seven employees charged $21,522 in salaries and
in related fringe benefits and overhead costs to NSF with no benefit to the NSF research grants,
sampled employees demonstrated a lack of understanding of Delaware’s effort certification
process including their responsibilities, system weaknesses in the automated effort reporting did
not allow for the capture of all necessary effort reporting data, and effort reports were certified
after the University’s mandated turnaround period of 60 days. These weaknesses occurred
because Delaware did not place sufficient emphasis on the labor effort reporting process as part
of its Federal grants management program. Had Delaware established an effective oversight
program, it is likely that many of the weaknesses and causes would have been identified and
mitigated. Specifically, Delaware did not (1) develop adequate effort reporting policies and
procedures, (2) require training for personnel involved in the effort reporting process, (3) fully
coordinate system development and reprogramming efforts between system developers and grant
management, or (4) establish an independent comprehensive evaluation to periodically review
the effort reporting process prior to FY 2008.

        We consider Delaware’s internal control weaknesses identified in the audit findings to be
significant. Accordingly, we request that your office work with the University and the cognizant
audit agency, the Department of Health and Human Services (DHHS) to develop a written
Corrective Action Plan detailing specific actions taken and/or planned to address each audit
recommendation. Milestone dates should be provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that Delaware has adequately addressed the recommendation and proposed corrective actions
have been satisfactorily implemented. Please note that we have sent a copy of the audit report
under separate cover to Mr. Jon D. Crowder of DHHS.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

   •   Provided a detailed audit program for the agreed upon procedures review and ensured
       WithumSmith+Brown’s approach and planning for the audit was appropriate;

   •   Evaluated the qualifications and independence of auditors;

   •   Monitored progress of the audit at key points by accompanying WithumSmith+Brown’s
       auditors on-site at the grantee;

   •   Coordinated periodic meetings with WithumSmith+Brown’s and OIG management to
       discuss audit progress, findings, and recommendations;

   •   Reviewed the audit report, prepared by WithumSmith+Brown’s to ensure compliance
       with Generally Accepted Government Auditing Standards and the NSF Audit Program;
       and

   •   Coordinated issuance of the audit report.

        WithumSmith+Brown, PC is responsible for the attached report on Delaware’s payroll
distribution and effort reporting system and the conclusions expressed in the audit report. The
NSF OIG does not express an opinion on the audit report’s conclusions.




                                                2
       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please call me at 703-292-4975 or Darrell Drake at 703-459-9175.

Enclosure

cc:   Gilbert Tran, Technical Manager, Office of Management and Budget
      Martha Rubenstein, Acting Chief Financial Officer and Director, BFA/OAD
      Alexander Wynnyk, Branch Chief, BFA/DAIS
      Charles Zeigler, Special Assistant, BFA/DIA




                                            3
Audit of Effort Reporting System

    University of Delaware
     Newark, Delaware


    National Science Foundation
    Office of Inspector General


          March 15, 2010

        NSF OIG 10-1-008




                                  Audit Performed by:
                                  WithumSmith+Brown
                                  A Professional Corporation
                                  Certified Public Accountants and Consultants

                                  8403 Colesville Road, Suite 340
                                  Silver Spring, Maryland 20910 USA
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA
301.585.7990. fax 301.585.7975
www.withum.com
                                               Mr. Jim Noeth
Additional Offices in New Jersey               Acting Associate Inspector General for Audit
New York and Pennsylvania                      Office of Inspector General
                                               National Science Foundation
                                               4201 Wilson Boulevard
                                               Arlington, VA 22230

                                               Dear Mr. Noeth,

                                               WIthumSmith+Brown is pleased to submit the performance audit report of the Effort
                                               Reporting System at the University of Delaware (Delaware). This audit report is one of a
                                               series of Office of Inspector General (OIG) reviews of the labor distribution systems being
                                               conducted at the National Science Foundation’s (NSF) top funded universities. The audit
                                               was performed in accordance with Government Auditing Standards (GAS).

                                               Our audit objectives were to: (a) evaluate whether Delaware’s internal control were
                                               adequate to properly manage, account for, monitor, and report salary and wage costs on
                                               NSF grants in accordance with the U.S. Office of Management and Budget (OMB) and NSF
                                               grant requirements: and, (b) determine if salaries and wages charged to NSF awards are
                                               allowable, allocable, and reasonable in accordance with federal cost principles and NSF
                                               award terms and conditions.

                                               We appreciate the opportunity to assist the OIG by providing the audit of Delaware’s effort
                                               reporting system.




                                               March 15, 2010
                                   Executive Summary
       This audit report provides the results of our review of the effort reporting system used
by the University of Delaware (Delaware) to support salaries and wages charged to the
National Science Foundation (NSF) awards. In fiscal year 2008, Delaware’s direct Federal
grant expenditures totaled $115 million, of which $24 million, or 21 percent, were for NSF
awards. Of the total NSF expenditures, $7.3 million was for salaries and wages. This audit is
one of a series of Office of Inspector General (OIG) reviews of the labor effort distribution
systems being conducted at NSF’s top-funded universities to assess the adequacy of internal
controls to ensure salary and wage costs claimed on NSF grants are properly managed,
accounted for, and monitored.

        Our review disclosed that Delaware has an established Federal grants management
program. However, the audit disclosed several internal control weaknesses that Delaware
needs to correct to ensure proper implementation and oversight of its effort reporting system.
Our review of 30 sampled employees, with total FY 2008 NSF salary charges of $696,648,
found that the effort reporting system did not ensure salaries and wages charged to NSF awards
reasonably reflected actual work performed on the sponsored projects. The audit disclosed
weaknesses that lead to deficiencies in our sampled population of employees and associated
effort reports and supporting documentation. Furthermore, using prior effort audit reports on
the NSF Inspector General website as a guide, Delaware’s Internal Audit department
performed the first review of the payroll distribution and effort reporting system and issued a
report in January 2009 that identified additional and similar weaknesses. These reviews
identify a wide range of systemic weaknesses in the effort reporting process and Delaware's
grant program.

Specifically, based on our interviews of the 30 sampled employees and review of related
documentation, our audit disclosed:

       Seven employees charged $21,522 in salaries and          in the related fringe benefits
       and overhead costs to NSF with no benefit to the NSF research grants. For example,
       five employees inappropriately charged administrative time to NSF grants; one
       employee’s excess salary payment could not be supported; and one employee’s time
       charged to a grant was higher than could be supported;

       Six employees demonstrated a lack of understanding of Delaware’s effort certification
       process, including their responsibilities. For example, three employees initially were
       unable to clearly support the effort charged to NSF and three faculty members did not
       clearly understand the difference between estimated workload and actual effort;

       System weaknesses in the automated effort reporting systems did not allow for the
       capture of all necessary effort reporting data. Thus, six effort reports were certified
       even though they were incorrect, two reported effort in excess of 100 percent and
       contained negative effort. Further, the system did not accurately allocate six of nine
       faculties salaries to NSF grants; and,


                                                i
       Twenty-one of 74 effort reports were certified after the University mandated
       turnaround period. The late certifications ranged from one day to over 600 days.

        Additionally, Delaware's internal review identified the following; (1) certifications not
timely, (2) accountability for transaction processing and segregation of duties compromised,
(3) no policy defining what constitutes “suitable means of verification”, (4) committed labor
effort was not consistently input into the system, (5) no guidance on salary precision in
Delaware policies for effort reporting, (6) eight instances of PI summer salaries exceeding the
NSF two-ninths limit, (7) lack of output reconciliation, and (8) University policies needed to be
reviewed and updated, including addition of definitions and example computations that explain
key terms of the University’s effort certification system and regulatory requirements for effort
certification.

        These weaknesses occurred because the University did not place sufficient emphasis on
the labor effort reporting process as part of its Federal grants management program. Although
a number of factors contributed to the exceptions noted in the sample, the most striking was the
need for improved programmatic oversight in both daily operations as well as periodic
independent reviews of the system. Had Delaware established a more effective oversight
program, it is likely that many of the weaknesses and causes identified in this audit and
Delaware's first internal review would have been identified and mitigated. Further, the
University had not (1) developed adequate effort reporting policies and procedures, (2)
required training for personnel involved in the effort reporting process, (3) fully coordinated
system development and reprogramming efforts between system developers and grant
management, or (4) established an independent comprehensive evaluation to periodically
review the effort reporting process.

       As a result, NSF has less assurance that Delaware labor effort reports are reliable in
reasonably supporting salaries and wages charged to sponsored projects. The significant nature
of these control weaknesses raises concerns about the reasonableness and reliability of the
remaining $6.6 million in FY 2008 labor charges to NSF grants and the $33.3 million salary
portion of Delaware’s other $115 million of Federal award expenditures. Further, these
weaknesses resulted in Delaware overcharging NSF $34,299 for labor effort and the associated
overhead costs that did not directly benefit NSF grants.

         Delaware did take actions to improve the effort reporting process prior to our audit,
through its first internal evaluation of the system as well as corrective actions taken in response
to the issues brought forth in this audit. While commendable, more work is needed to establish
an effective grant management program. Specifically, our recommendations were primarily
directed toward enhancing the University’s labor effort reporting system by (i) updating and
revising policies to fully comply with Federal regulations, (ii) providing employee training to
ensure cognizant department and academic staff fully understand their effort reporting
responsibilities so that established procedures are accurately and consistently implemented,
and (iii) providing adequate oversight of the effort reporting process. Finally, we
recommended that Delaware resolve the $34,299 in questioned costs.



                                                ii
        A draft report requesting comments on the audit findings and recommendations was
issued to Delaware. The University generally concurred with the recommendations with the
exception of findings related to three of the sample items. In addition, Delaware is committed
to compliance and looks for ways of improving the systems currently in place to better serve
the campus.

        Delaware’s responses, once fully implemented, should address the audit
recommendations. NSF should work with the cognizant audit agency and/or Delaware to
ensure the University develops an acceptable corrective action plan to resolve each audit
recommendation. We summarized Delaware’s responses and provided our comments after
each recommendation in the report. The University’s complete response to the draft report is
included as Appendix B.




                                              iii
                                                   University of Delaware

                                                       Table of Contents


EXECUTIVE SUMMARY ........................................................................................................ i

INTRODUCTION

       Background ..........................................................................................................................1

       Objectives, Scope, and Methodology ..................................................................................2

FINDINGS AND RECOMMENDATIONS

       1. Internal Controls Over the Effort Reporting System Needs Improvement.....................5


APPENDICES

       Appendix A - Schedule of FY2008 Questioned Costs ......................................................19

       Appendix B - Delaware’s Response to Draft Audit Report ...............................................20


       ACRONYMS

       Delaware                 University of Delaware
       HR                       Human Resources
       IBS                      Institutional Base Salary
       JV                       Journal Voucher
       LAM                      Labor Allocation Module
       NSF                      National Science Foundation
       OIG                      Office of Inspector General
       OMB                      Office of Management and Budget
       PI                       Principal Investigator
       S-Contract               Supplemental Pay Contract
       UPL                      Upload Transaction
                                   INTRODUCTION

BACKGROUND

        Approximately one third of the National Science Foundation (NSF) award funds
are provided for salary and wages, amounting to about $1.3 billion annually at
universities. Also, in recent years, there have been several civil settlements involving
overcharges of labor costs to Federal grants, amounting to millions of dollars at several
major universities, including some funded by NSF. Because of these legal actions and
the material amounts of labor costs paid from NSF awards, the Office of Inspector
General (OIG) has undertaken a series of reviews of the labor effort distribution systems
at NSF’s top-funded universities in order to assess the adequacy of internal controls to
ensure salary and wage costs claimed on NSF grants are properly managed, accounted
for, and monitored. This audit, involving the University of Delaware, is one of the
planned reviews of such labor effort distribution systems.

        The University of Delaware (Delaware) “exists to cultivate learning, develop
knowledge, and foster the free exchange of ideas. State-assisted yet privately governed,
the University has a strong tradition of distinguished scholarship, research, teaching, and
service that is grounded in a commitment to increasing and disseminating scientific,
humanistic, and social knowledge for the benefit of the larger society. Founded in 1743
and chartered by the state in 1833, the University of Delaware today is a land-grant, sea-
grant, space-grant, and urban-grant university.”

       The University is located in Newark, Delaware and is a federation of colleges,
schools, departments and research institutes. In fiscal year 2008, Delaware had
approximately 1,100 faculty members, 2,600 executive, administrative and support staff,
16,000 undergraduates, and 3,500 graduate and professional students. Generally,
Delaware faculty members are awarded nine-month academic year appointments, and
thus dedicate a majority of their effort to federally sponsored research projects in the
summer.

       In fiscal year 2008, Delaware’s direct Federal grant expenditures totaled
$115 million, of which $24 million was for NSF awards. Of the total NSF expenditures,
$7.3 million, or 31 percent, was for salaries and wages.

        The University’s Research Office is responsible for the management and
oversight of Federal grant programs. Primarily, the Research Office is tasked with both
pre-award and post-award grant activities, including ensuring Delaware’s compliance
with Federal grant regulations and sponsoring agency requirements. As such, the
Research Office develops Delaware policies and procedures for Federal grants
management and is charged with implementing appropriate training programs and is
responsible for financial administration and monitoring of active Federal awards.
Additionally, the Research Office is responsible for compiling and disseminating effort
reports to all academic departments to provide for the certification of actual work effort
devoted to federally-sponsored projects. The Research Office also maintains the official

                                             1
electronic file of effort reports.

        Within each academic department, senior grant and contract administrative
officials are tasked with the management and oversight of sponsored projects to ensure
compliance with Federal and university policies and procedures. Such officials typically
assist and advise faculty members with the management of Federal grants. They are
responsible for ensuring that: awards and their budgets are created accurately in the
University’s financial system; award expenditures are monitored on a monthly basis;
charges to Federal awards are appropriate; and responsible individuals confirm the
reasonableness of employee labor effort on the effort reports. Principal Investigators (PI)
have the primary responsibility for all aspects of the federally-sponsored projects
including approval of all charges and for ensuring that the research is conducted in
accordance with the award terms and conditions.

OBJECTIVES, SCOPE AND METHODOLOGY

        Audit Objectives. Our audit objectives were to: (a) evaluate whether Delaware’s
internal controls were adequate to properly manage, account for, administer, monitor, and
report salary and wage costs on NSF grants in accordance with the Office of Management
and Budget (OMB) and NSF grant requirements and (b) determine if salaries and wages
charged to NSF awards were allowable, allocable, and reasonable in accordance with
Federal cost principles and NSF award terms and conditions.

         Scope and Methodology. The audit focused on Delaware’s payroll distribution
and effort reporting system and, accordingly, we reviewed internal controls for ensuring
that labor costs charged to NSF were (i) actually incurred; (ii) benefited NSF awards; (iii)
were accurately and timely recorded; and (iv) were for allowable and allocable-type
activities, as required by Federal and NSF grant requirements. In addition, we evaluated
whether the level of PI effort pledged in grant proposal and award documents was
actually contributed by the faculty member to accomplish award objectives.

        To address each of these control objectives, NSF-OIG engaged a statistician to
provide assistance in selecting a statistical sample of employee salary records for testing.
The use of statistical tools and methodology is to enable the NSF-OIG to project the audit
results to the entire population of universities included in its planned reviews of payroll
distribution and effort reporting systems nationwide. However, due to the small
statistical sample size of 30 employees tested, we are not able to make any projections to
the total Delaware population of labor costs charged to NSF grants. Specifically, the FY
2008 salaries and wages costs for the 30 sample employees tested amounted to $696,648
and were supported by 74 effort reports. The statistical sample was derived from a total
population of 596 employees, who charged $6.9 million of salaries and wages to NSF
grants during FY 2008. This population excluded (a) any employee with total salary
costs of $100 or less, and (b) all salary charges for undergraduate students. These
amounts were excluded because of their small dollar value and the difficulty in locating
undergraduate students for personal interviews.




                                             2
       We interviewed key University officials and reviewed the organization structure
and written policies and procedures to assess the “attitude” or “tone at the top” toward
grants management and compliance in general as it affects effort reporting.

       We compared Delaware’s policies and procedures to Federal and NSF
requirements for allocating labor costs to Federal awards and interviewed Delaware
personnel to gain an understanding of the controls in place to ensure salaries and wages
charged to NSF awards were reasonable and allowable. For the 30 statistically selected
employees, we obtained the following documentation to determine whether labor costs
Delaware charged NSF awards met the control objectives:

           Effort Reports documenting 100 percent of each employee’s work activities
           were allocated to sponsored and non-sponsored projects for each reporting
           period.

           Appointment letters or other documents support the approved annual base
           salary for employees.

           Human Resource Management System reports detail the actual salaries and
           wages charged to sponsored projects and other activities for each employee
           during each reporting period.

           Award documents determine whether the grant had any terms and conditions
           that would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and
benefited NSF awards, we corroborated the information on the effort reports by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges
documented were actually incurred on projects and activities, (b) the approximate
percentage of effort actually worked on each sponsored project and/or activity was
reasonably consistent with NSF labor charges, and (c) the type of work performed on
NSF projects was generally consistent with the scope of the awards. We also interviewed
selected administrative grants managers in academic departments to determine the
procedures for processing and monitoring employee salary charges to Federal grants.
Additionally, we interviewed selected PIs to determine the number of projects and
personnel they were responsible for and their processes for verifying work performance
prior to approving and certifying effort reports.

        To confirm that faculty effort pledged in grant proposals was actually contributed
to accomplish grant objectives, we reviewed processes for reporting and tracking PI
effort and whether the associated salary costs were properly included in the organized
research base for computation of the University’s indirect cost rate. We reviewed award
documents for all Federal grants that a faculty member worked on during FY 2008 to
determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we
determined whether and how Delaware tracked and documented PI effort on sponsored



                                            3
projects when no faculty salary support was requested or reimbursed by the Federal
Government.

        To determine whether labor costs were accurately recorded and charged to NSF,
we compared the amounts in appointment letters or other documentation supporting
salaries and wages paid to the amounts recorded in the Human Resources System for
each individual in our selected sample. We recalculated salary and wage costs charged to
NSF projects by using the salary shown on supporting documentation and apportioning it
by the period of time and percent of effort represented on the effort reports. We also
reviewed labor transactions to determine whether Delaware followed Federal, NSF, and
University requirements on charging labor costs to NSF projects.

        We determined whether Delaware officials certified effort reports in a timely
manner, by comparing the date the effort report was distributed to the academic
departments to the date the reports were certified. Timeliness was based on Delaware’s
internal policy requiring effort reports to be certified within 60 days from the release of
views to the Effort Administrators. As required by Delaware’s policy, we determined
whether the effort reports were properly certified by the employee, the project PI, or a
responsible official with “suitable means of verification” that labor effort shown on effort
reports was a reasonable representation of the work performed.

        Finally, we reviewed prior audit reports on Delaware’s Federal grants
management program performed by the University’s internal auditors and the OMB
Circular A-133 auditors to determine whether there were any audit findings and
recommendations on labor effort reporting. Specifically, we interviewed cognizant
Internal Audit staff and reviewed the working papers, as needed, to gain an understanding
of the scope and procedures used in any audits of Delaware’s payroll distribution
reporting system and/or University management of labor costs charged to Federal
projects. We also met with Delaware’s independent auditors who performed the OMB
Circular A-133 audit1 to discuss their overall audit scope and procedures used for
reviewing salaries and wages charged to Federal awards and their review of the labor
effort reporting system. We reviewed the most current A-133 audit working papers
available during our site visit to ascertain the actual audit scope and procedures used in
order to (i) preclude any duplicative audit work and (ii) determine the specific audit
procedures performed on the labor effort reporting system.

        Onsite review work at Delaware was performed for 2-week periods during
February and May 2009. The remainder of the audit work was completed through phone
interviews, emails, and documentation requests through the beginning of September 2009.
We were engaged to perform the above audit objectives by the NSF-OIG. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

1
    OMB Circular A-133 is entitled Audits of States, Local Governments, and Non-Profit Organizations.

                                                                  4
                                   FINDINGS AND RECOMMENDATIONS

1. Internal Controls Over the Effort Reporting System Need Improvement

Federal Requirements for Labor Effort Reporting

         OMB Circular A-21, Cost Principles for Educational Institutions, requires
certification of labor effort contributed by employees on Federal awards to reasonably
reflect the actual labor effort contributed by the employee to meet the objectives of the
award. The effort reporting system must provide for an after-the-fact confirmation of
employee activity by the employee conducting the work being reported or by an official
that is in a position to know whether the work was performed. Although Federal
requirements do not specify when a labor effort report should be completed, university
officials should provide the after-the-fact confirmation as close to the end of the reporting
period as possible to help ensure its reliability. Delaware required effort reports to be
certified and returned within 60 days after the release of views from the Research Office.
As such, “the recipient institution is responsible for ensuring that costs charged to a
sponsored agreement are allowable, allocable, and reasonable under these cost principles”
and “must provide for adequate documentation to support costs charged to sponsored
agreements.”2

       Consistent with the OMB Circular A-21 requirement for “sound business
management practices,” OMB Circular A-110, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-
Profit Organization, requires entities receiving Federal awards to establish and maintain
internal controls that are designed to reasonably ensure compliance with Federal laws,
regulations, and program compliance.

Delaware’s Effort Reporting System

        University Policy No. 6-5, Effort Certification Reporting, updated January 2009,
specified Delaware’s approach for compliance with OMB Circular A-21 by defining the
University’s policies and procedures regarding the planning, monitoring, and certification
of the Effort Report by applicable office and academic unit.

        Pursuant to the OMB requirements, Delaware implemented an effort report
system to document the after-the-fact certification of the reasonableness of employee’s
salaries and wages charged directly to sponsored projects and other activities. The
Research Office is responsible for electronically distributing the effort reports to each
department biannually. The effort administrators within each department review the
reports prior to notifying the employees that the effort reports are available through web
views for certification. Delaware’s policies and procedures require the effort reports be
certified within 60 days from the release of views.


2
    Paragraphs C.4.d.(1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for Educational Institutions.

                                                                    5
        However, the audit disclosed that Delaware did not establish adequate internal
controls over the effort reporting system. Specifically, we found that (1) salaries and
wages charged to the NSF did not always benefit grants (or were correctly charged to
NSF grants), (2) employees were not sufficiently educated on the salary distribution and
effort reporting processes, (3) system weaknesses were not identified and corrected in a
timely manner, and (4) effort reports were not certified within the established turnaround
period. The sample was small in proportion to the population (30 of 721 employees)
representing only $696,648 of $7,327,803 in salaries and wages charged to NSF during
FY08; therefore, we are not able to make any projections to the total Delaware population
of labor costs charged to NSF grants. The statistical sample of 30 employees’ time
charged to NSF was supported by 74 effort reports.

Salary Charges Not Directly Benefiting NSF Grants

        The audit disclosed that Delaware charged NSF grants for activities that did not
directly benefit the projects to which they were applied. Specifically, the following
mischarges were indentified: (1) five employees inappropriately charged administrative
time; (2) one employees’ excess salary payment could not be appropriately supported;
and (3) one employees’ time charged was higher than could be supported by the
interview. These seven employees charged $21,522 in salaries tested and             in the
related fringe benefits and overhead (overhead) costs to NSF with no benefit to NSF.

        Administrative Time Charged Directly to Sponsored Projects. OMB Circular
A-21 and university policy clearly established that only employee activities directly
benefiting federally-sponsored projects are allowed to be charged to such sponsored
projects. However, five employees charged $8,067 of the salaries tested and $4,570 in
the related fringe benefits and overhead (overhead) costs to NSF, even though there was
no direct benefit to the NSF grants. For example, two graduate students and two
professionals stated that they spent approximately ten percent of their time assisting in
preparing grant proposals. Proposal preparation costs generally cannot be charged
directly to a grant. Another professional charged approximately five percent of her time
serving on a university hiring committee that did not directly benefit the grant charged.
Costs for administrative activities should have been included as part of the indirect cost
rate. See Appendix A for further details on questioned costs.

       Excess Salary Payment Improperly Allocated to a Sponsored Project. OMB
Circular A-21 mandates that universities “must provide for adequate documentation to
support costs charged to sponsored agreements.”3 However, Delaware did not adequately
document why the excess salary was paid to a full-time researcher. The payment
documentation simply stated that the full-time researcher performed additional research,
but Delaware was unable to provide an explanation as to the number of hours or how the
excess salary amount for the research was determined. As a result, Delaware mischarged
NSF $3,520 in salary and         for the associated fringe benefits and overhead for the
excess salary payment. See Appendix A for further details on questioned costs.


3
    Paragraph A.2.e of OMB Circular A-21, Cost Principles for Educational Institutions.

                                                                   6
        NSF Charged For Work Not Performed on Grant. An interview of one
professional did not support the allocation of salary charged to an NSF grant. The
employee stated more time was spent on educational duties and less on research then was
reflected on the effort reports. The employee did not understand how items were
classified on the Delaware effort report and, in fact, could not describe the effort report.
In addition, Delaware was unable to provide additional documentation to support these
charges to NSF. This resulted in an overcharge to NSF of $9,935 in salary and              in
related fringe benefits and overhead. See Appendix A for further details on questioned
costs.

Lack of Understanding of the Effort Certification Process

        Our interviews clearly noted a lack of understanding by employees of Delaware’s
effort certification process, including their responsibilities. Specifically, the interviews of
three employees initially were unable to clearly support the effort charged to NSF, and
three faculty members did not clearly understand the difference between workload and
effort. Salary charges for these six employees represented $67,713 of the total salary
tested.

        Certification Without Understanding. In addition to the interview that identified a
misallocation of effort resulting in questioned costs above, interviews of three additional
employees disclosed they could not clearly validate the reasonableness of the salaries
charged to the NSF grants. In one instance, an employee stated he worked for a major
research center as a system administrator and did not realize that he actually was working
on a NSF grant. In another instance, an employee stated that he was familiar with the
NSF grant, but believed that he did not work on the NSF grant during FY 2008. Finally,
one employee stated in the interview that half of the time charged to NSF was for work
on research for another Federal agency. While subsequent documentation provided by
Delaware supported work performed by these employees on NSF grants, these employees
certified effort without a complete understanding of the NSF projects assigned to them or
their roles and responsibilities for the projects from which their salaries were paid.

        Matching Workload and Effort. Three of the nine faculty members interviewed
mistakenly believed that it was always correct for the effort report to match workload
estimates. Workload is the original labor estimate proposed in the grant proposal
submitted to NSF for approval, whereas the labor effort report is supposed to
approximate actual labor effort expended on the grant. For example, one faculty member
was not even aware of the effort report, but rather that workload was discussed annually
with the department chair. Another faculty member reviewed assigned workload for
reporting prior to certifying effort. Further, one faculty member paid particular attention
to workload numbers believing they would be reported to the department chair at the end
of the year and could negatively impact his merit pay.




                                              7
System Weaknesses Not Detected

         In March 2005 Delaware developed and implemented an online web-based
application for employees to certify effort. The application provides two different views.
The narrative view for the employees rolls up by project and purpose and includes long
title descriptions of the rolled up items. The administrative view rolls up by project,
purpose and class and includes the salary information. The system has been updated
multiple times since implementation with the most recent update completed July 30,
2009.

        The audit identified several system weaknesses that resulted in a number of
reporting errors on certified effort reports. Specifically, the system did not capture non-
sponsored journal voucher entries allowing effort reports to be certified even though
labor effort either exceeded 100 percent or resulted in negative effort being reported. In
addition, the system did not capture transactions that impacted labor effort reporting and
were processed by Delaware's General Accounting Office or supplemental summer
payments. The audit disclosed that 6 of the 74 certified effort reports sampled (eight
percent) contained errors resulting from these system weaknesses. Finally, the system
was not programmed to adjust for 9-month salary levels being paid over 12-months. The
audit identified another six effort reports containing adjustment errors. These six effort
reports with errors represented $14,435 of total salaries tested. See below for additional
detail.

        Effort Reports were Certified Containing Errors. The web-based effort system
did not capture a journal voucher (JV) transaction on a non-sponsored account. Thus, a
$5,000 credit to one project code was not captured although the debit to another project
code was. This error caused the effort for the period to total 119 percent. Additionally, a
processed JV mistakenly credited the wrong project. This error caused a negative value
to be reflected on the effort report. Delaware corrected these mistakes upon notification
and revised effort reports were subsequently provided for audit. However, the overall
weakness will continue unless checks in the system are designed to ensure effort does not
total greater than 100 percent or include negative percentages.

        In addition, the system was not programmed to include upload transactions (UPL)
that impact labor effort reporting. UPL transactions are journal entries processed by
General Accounting. The audit identified a $1,217 transaction that was not processed to
an effort report. Delaware recently discovered that the effort reporting system should
have (but had not) been programmed to include UPL transactions. The deployment of
the revised programming has not been completed to date; however once completed, the
affected effort report will be reprocessed and certified.

Further, some S-contracts for summer research pay were not captured in the effort
reporting process. For example a $13,218 summer payment process via an S-contract
was not processed and included as part of the PI's overall labor effort. S-contracts were
the only mechanism to process faculty summer research payments. According to
Delaware officials, when payments are made outside of the effort period in which they

                                             8
were earned, the corresponding effort report must be recreated to capture the new data.
Delaware responded in the fall of 2008 by having Human Resources run monthly reports
to discover summer research pay which was processed outside of the summer months.
These reports are forwarded to the effort administrators as a reminder of which people
may require updated effort reports. However, this is a labor intensive process that has not
been formalized through policy and procedure. As noted, this process is subject to a
greater risk of error than if Delaware could correct the system programming to include
this type of transaction to update the effort reports.

        Finally, the payroll distribution system was not programmed to make the
appropriate adjustments for 9-month salaries paid over 12-months. The audit identified
six employee’s effort reports containing incorrect percentages of effort. The percentages
of certified effort were understated by 3 percent to 11 percent. At Delaware, the reporting
and confirmation of time spent conducting any university activity is expressed as a
percentage of the total salary paid during that timeframe. That salary is paid out evenly
over 12 months based on the percentages recorded in the Labor Allocation Module
(LAM). Because the faculty member’s annual salary, as it relates to the institutional
based salary (IBS), is paid over the entire year, and compensation for summer research is
not part of the annual salary, the percentages reported on the March – August effort
reports are improperly skewed when the faculty member performs research during the
summer. Further complicating the issue, Delaware established 2 six-month effort
reporting periods (September–February and March–August) that do not coincide with the
academic semesters4. The percentage certified could be confusing to a faculty member.
Unless the faculty member understands the process for calculating the effort when they
work during the summer semester, they would not realize that the percentage recorded
does not represent the actual percentage of effort. These six employees represent
$92,651 of the total salary tested.

Effort Reports Did Not Meet the University’s 60-Day Turnaround Period

        Finally, effort reports were not certified within Delaware's established policy.
Our audit disclosed that 21 of 74 effort reports, representing $192,795 (28 percent) of the
total NSF labor charges reviewed, were certified after the University’s mandated 60-day
turnaround period. The number of days late ranged from 1 to 611 days beyond the
University’s 60-day turnaround period. The following table summarizes the number of
days beyond the Delaware certification period that employees took to review and approve
their effort reports.




4
 Fall semester is September thru December, Spring semester is February thru May and Summer semester is
June thru August

                                                  9
                       NUMBER OF DAYS LATE BEYOND CERTIFICATION PERIOD

                                              # of Late     % of Late                                         % of Late
           Days Late                       Effort Reports Effort Reports Total Salaries                       Salaries
             1 to 50                             15            20 %      $     157,079                          23 %
            51 to 100                             1            1 %              10,000                          1 %
           101 to 611                             5            7 %              25,716                          4 %
Not Certified Timely                             21           28 %             192,795                         28 %
Effort Reports Certified On-Time                   53                 72 %                    503,853            72 %
Total                                              74                 100%             $      696,648            100%

        Typically, employees do not establish and keep records of their labor effort on
grants and other activities and Federal cost principles do not require this record keeping.
Under the current Delaware reporting system, employees may have to remember up to 8
months5 of activity to confirm effort reports. Therefore, the longer it takes to certify
effort reports, the less reliable effort reports may become because employees generally
rely on their memory when approving effort for themselves and the individuals that work
for them. Thus, providing an after-the-fact confirmation as close to the end of the effort
reporting period as possible helps to ensure the reliability of the effort reporting system.

Factors Contributing to Effort Reporting Weaknesses

                These weaknesses occurred because the University did not place sufficient
emphasis on the labor effort reporting process as part of its Federal grants management
program. Although a number of factors contributed to the exceptions noted in the
sample, the most striking was the need for improved programmatic oversight in both
daily operations as well as periodic independent reviews of the system. Had Delaware
established a more effective oversight program, it is likely that many of the weaknesses
and causes identified in this audit and Delaware's first internal review would have been
identified and mitigated. Further, the University had not (1) developed adequate effort
reporting policies and procedures, (2) required training for personnel involved in the
effort reporting process, (3) fully coordinated system development and reprogramming
efforts between system developers and grant management, or (4) established an
independent comprehensive evaluation to periodically review the effort reporting process
(Prior to FY08).

        Lack of Monitoring and Oversight. The Research Office did not provide
sufficient programmatic oversight needed to ensure the effort reporting process
conformed to Federal requirements or whether established controls were consistently
complied with. At the onset of the audit, Delaware added a full-time staff member
devoted to effort reporting to include the management of timeliness and accuracy.
Although this will help improve oversight, improvement of the areas below and
continued emphasis on this process will be needed for the effort reports to be reliable.

5
 The amount of time employees have to recall work activity can be 8 months or more since the effort reporting period covers six
months, distribution of the effort has not been defined and the certification turnaround period is 60 days from the release of views.

                                                                10
         Lack of Adequate Effort Reporting Policies. Delaware’s effort reporting policies
and procedures were inadequate in the following areas: (1) identifying employee’s work
activities that may be charged directly to federally-sponsored projects from those work
activities that should not be charged directly to sponsored projects, (2) defining an effort
report release period, and (3) identifying senior management officials that would be held
accountable for the timely certifications of effort reports.

           Identifying Work Activities. Delaware policies did not define the specific work
           activities by employee type that are included in the annual base salaries and
           whether those activities could be charged directly to federally sponsored
           projects. This likely contributed to the incorrect charging of administrative
           time, preparing grant proposals and working on committees directly to NSF
           sponsored projects. Delaware stated that it is their understanding that one of
           NSF’s goals in funding graduate students on research is to provide them an
           educational experience and grant writing is part of that experience. However,
           directly charging time spent on proposal writing is only allowable when
           explicitly stated in the grant.

           Defining Report Release Period. Although the University had a policy
           requiring academic departments to certify and return effort reports within
           60 days of the release of views, they did not specify the number of days
           from the end of the effort reporting period that effort reports should be
           released to the academic departments. Of the effort reports included in
           our sample, 93 percent were released within 17 days from the end of the
           effort period, but the amount of time from the end of the effort reporting
           period to certify effort reports may vary significantly between reporting
           periods because the University had not established an effort report release
           period. For example, one of the effort reports in our sample was not
           released until July of 2009 even though the report was for the reporting
           period ending August 31, 2007. However, under the policy in effect
           during FY08, that report would not be considered late even though it was
           certified 670 days after the end of the reporting period. As stated earlier,
           the longer it takes to certify effort reports the less reliable they may be
           because employees typically certify effort reports based on their memory.
           Therefore, to ensure effort reports are certified as close to the end of the
           reporting period as possible, it is critical to define a distribution period
           when effort reports should be released to the academic departments. The
           University has subsequently updated the policy (as of 7/09).

           Identifying Senior Officials Accountable. Delaware’s policy did not
           designate senior management officials, such as department chairs, to be
           held accountable for the timely completion of effort reports. Such senior
           officials (i.e. department chairs), who have the responsibility for securing
           and retaining staff and faculty members and recommending tenure and
           promotions, would have more leverage than department grant

                                            11
             administrative staff or Research Office personnel in ensuring employees
             review and certify effort reports within the University’s certification
             period.

             To address a weakness identified by Delaware’s internal auditors6, in
             January of 2009, Delaware implemented a new procedure to distribute
             escalating dunning letters every twenty days. Currently, reminders are sent
             to effort administrators twenty days prior to the sixty day completion
             deadline. When reports are one to twenty days late, the dunning letters are
             sent to the effort administrators, and their department chairs and assistant
             deans are copied on the notices. When reports are eighty-one or more days
             late, the dunning letters are sent to the effort administrators, and their
             department chairs, assistant deans and the deans are copied on the notices.
             Delaware stated the timeliness of completion has improved greatly since
             this implementation. Within 15 days after the first dunning letters were
             distributed, they had a 33 percent reduction of overdue reports. We agree
             that the new system should help shorten the certification process and
             should provide both department personnel and University staff with the
             capability to monitor effort reports for timely completion; however, it is
             essential that Delaware officials establish formal procedures to
             institutionalize the process.

        Training. Delaware did not ensure its training program was effective and simply
relied on employees to avail themselves of the training available. Delaware stated
training was available on the Research Office website, and live training is presented
periodically. Department effort administrators were expected to make themselves aware
of the requirements and process and were also responsible for providing training and
assistance to their employees. However, the interviews performed for this audit made it
clear that most employees (twenty-eight of the thirty employees) had not received
adequate training on effort reporting. Two employees did receive training, a grant
administrator and a PI. The grant administrator stated informal training on the effort
report system was received prior to the interview and a more formal training was
provided subsequently. The PI stated that years ago he received informal training from
one of the department’s business people. As noted earlier in the report, we identified a
number of weaknesses such as inappropriate administrative charges, improper charges
applied to projects, and lack of understanding of workload and effort that can also be
attributed to a lack of a focused training program.

        In response, Delaware implemented a change to the automatic email notifications
generated by the effort system. When employees receive email notice that there is an
effort report requiring their attention, the email now contains a thorough explanation and
instructions for the reporting requirements, as well as a link to the University’s policy on
effort reporting. Additionally, to improve training for effort administrators, the recently
appointed effort manager now contacts newly appointed effort administrators to provide

6
  See the information below addressing the independent evaluation of the effort report system conducted by
the University of Delaware Internal Audit department.

                                                   12
them guidance in finding the training sources available on the web, and assesses their
level of need for additional personal guidance and training based on how familiar they are
with managing sponsored projects. Furthermore, the automatically generated email
notifications which they receive every time a report comes into their possession also
contains the same level of information and instruction which is sent to the employees, as
well as a link to the on-line training geared towards effort administrators.

        While we agree that these steps will help address the issue, we would add that it is
essential that mandatory periodic training for all personnel involved in effort reporting be
established. Periodic training would not only stress its commitment by University
management of the importance of its effort reporting process, but serve to ensure that
new staff is trained as well as keeping all staff involved with effort reporting apprised of
any changes to the process.


        System Development and Programming. The system errors occurred because the
developers did not fully coordinate programming changes with grant management
officials. Thus they were not aware of how potential transactions might affect account
balances and the impacts of both the initial system development and subsequent
reprogramming attempts. Furthermore, programming changes were not properly tested
prior to implementation. A full understanding of the impact of system changes and
testing may have identified and corrected system weaknesses years ago.

        In addition, Delaware did not fully consider the repercussions of defining
reporting periods that split the academic semesters. Delaware agrees the periods are an
issue and stated they are investigating and taking into consideration alternate methods of
dividing their effort periods. Delaware expects to implement changes once a suitable
solution is formulated.

        Independent Comprehensive Evaluations. Finally, OMB Circular A-21, Cost
Principles for Educational Institutions, requires universities to conduct a periodic
independent internal evaluation of its payroll distribution and effort reporting system to
ensure the system meets Federal requirements and is effective. However, Delaware had
not performed a comprehensive evaluation, or had a policy in place to do so, because
they believed its annual A-133 audit met the OMB Circular A-21 requirement for an
independent evaluation of its payroll distribution system. Although these audits cover
some aspects of effort reporting, they were not designed to be comprehensive evaluations
of the payroll distribution and effort reporting system. A review of the most current
A-133 audit and the work performed on the effort reporting system confirmed this
statement.

         In 2008, Delaware's internal auditors developed an audit approach to complete an
independent internal review of their payroll distribution and effort reporting system. The
approach was developed by reviewing previous NSF Office of Inspector General labor
effort reports posted on the internet. In January 2009 they completed the independent
internal review of their payroll distribution and effort reporting system. The audit

                                            13
identified a total of eight audit findings; (1) certifications not timely, (2) accountability
for transaction processing and segregation of duties compromised, (3) no policy defining
what constitutes “suitable means of verification”, (4) committed percentages not
consistently input into the system, (5) no guidance on salary precision in Delaware
policies for effort reporting, (6) eight instances of PI summer salaries exceeding the NSF
two-ninths limit, (7) lack of output reconciliation, and (8) University policies needed to
be reviewed and updated, including addition of definitions and example computations
that explain key terms of the University’s effort certification system and regulatory
requirements for effort certification.

         The audit was very well thought out for their first comprehensive evaluation and
when combined with our review shows the weaknesses Delaware must address.
However, the internal auditors did not interview employees to corroborate the
information on the effort reports. If the internal auditors had conducted interviews they
likely would have identified employees incorrectly charging their administrative time
spent on preparing grant proposals directly to sponsored projects and the lack of training.
Furthermore, the internal auditors did not review grant documentation nor did they ensure
that at least some faculty effort (paid or unpaid by the Federal Government) was
committed to a sponsored project or that an estimated amount of faculty effort was
computed by the University and included in the organized research base. Delaware
intends to include the audit of their payroll distribution and effort reporting system in
their three-year audit plan; however, until the issues noted elsewhere in this report have
been resolved, Delaware may want to audit the system more frequently.

        As a result of the issues noted above, Delaware can only provide limited
assurance over the accuracy of effort reports tested. More significantly, those control
weaknesses could affect the remaining $6.6 million of FY 2008 labor charges to NSF
grants, as well as the $33.3 million salary portion of Delaware’s other $115 million of FY
2008 Federal expenditures and any potential future funding. Further, these weaknesses
resulted in $34,299 of overcharges to NSF for salaries and the associated overhead costs
based on our limited sample. Therefore, it is likely additional overcharges exist and will
continue without changes to the internal control structure.

Recommendations

       We recommend that the NSF Director of the Division of Grants and Agreements
and the Director of the Division of Institution and Award Support, coordinate with the
cognizant audit agency, as needed, to implement the following recommendations:

1.1    Work with the Delaware officials to establish an internal control structure that
       utilizes the capabilities of its new automated effort reporting system to ensure a
       payroll distribution and effort reporting system that reasonably reflects the actual
       effort employees devote on sponsored projects. At a minimum, Delaware should
       take the following corrective actions:

       a.      Establish or revise University effort reporting policies and procedures to:

                                             14
 i. Define the typical instructional, research and administrative work
    responsibilities included in the annual base salary for various types of
    Delaware employees and distinguish which of those activities that can
    be charged directly to Federal awards and cannot be charged directly
    to Federal awards.

    Delaware’s Response

    Delaware revised its Policy 6-5, “Effort Certification Reporting,” to
    further define the Institutional Base Salary in July 2009 prior to
    completion of this audit. In addition, Delaware will further revise
    Policy 6-5 to distinguish activities that cannot be charged directly to
    Federal awards.

    Auditors’ Comments

    Delaware addressed our recommendation by further defining the
    Institutional Base Salary and should address fully our recommendation
    after revising Policy 6-5 to distinguish activities that cannot be charged
    directly to Federal awards.

ii. Define a maximum number of days from the end of the effort reporting
    period to release effort reports to the academic departments.

    Delaware’s Response

    Delaware updated its Policy 6-5 that currently requires the Research
    Office to produce and release effort reports within ten days after
    conclusion of the reporting period.

    Auditors’ Comments

    Delaware’s revision to Policy 6-5 fully addressed our
    recommendation, which should improve its timely completion of effort
    report certification.

iii. Require the effort administrators to monitor effort reports to ensure
     they are completed within the University’s established certification
     period.

    Delaware’s Response

    Delaware revised its Policy 6-5 to better define and communicate the
    role of the effort administrator to facilitate the timely and accurate
    completion of department’s effort reports. In addition, Delaware

                              15
           implemented an automated dunning procedure for incomplete effort
           certifications at 20 days intervals, including dunning letters to the dean
           when the overdue effort certification reaches 80 days.

           Auditors’ Comments

           Delaware’s revision to Policy 6-5 clarified the role and responsibilities
           of an effort administrator. In addition, Delaware established an
           automated system of distributing dunning letters at 20 day intervals
           and inclusion of senior University officials for overdue effort
           certifications. These two actions addressed our audit recommendation
           and should improve the timely effort certifications.

      iv. Require periodic independent evaluations of the payroll distribution
          and effort reporting system to ensure the system is in compliance with
          Federal, NSF, and University standards and is working effectively.
          The policy should identify the specific office responsible for
          performing the evaluation and how often such an evaluation should be
          conducted and timely resolution of findings and recommendations.

           Delaware’s Response

           Delaware’s Internal Audit Department will confirm the
           implementation of the audit recommendations in FY 2011 and conduct
           the required independent evaluations of the Effort Reporting System
           once every three years thereafter, which will be formalized in the
           Research Office Policy.

           Auditors’ Comments

           Once implemented, Delaware’s actions should address our audit
           recommendation.

b. Require periodic training for all employees involved in the effort reporting
   process. Such training should include a thorough discussion of effort report
   certification responsibilities, monitoring effort and administration, and
   requirements and the various types of employee work activities that can be
   charged directly to Federal awards from those work activities that should not
   be charged directly to Federal awards.

   Delaware’s Response

   New position of Training Coordinator was established and filled by Delaware.
   In addition, University plans to expand its capacity for training including
   implementation of training approach for effort certification required for all
   employees certifying or viewing reports beginning with the March 2010

                                     16
   release of effort certifications. Future plans include mandatory training for all
   principal investigators and effort administrators to address their
   responsibilities, monitoring, administrations, and guidance on allowable and
   unallowable charges to Federal awards.

   Auditors’ Comments

   Delaware’s action of establishing and filling a new Trainer Coordinator
   position partly addressed our audit recommendation. Once plans for
   expansion in training are fully implemented, Delaware’s actions should fully
   address our audit recommendation.

c. Monitor the new procedures that assign Delaware senior management officials
   responsibility for identification and correction of errors in the web-based
   system in a timely manner, to ensure effective implementation.

   Delaware’s Response

   The creation of the Effort System Manager position in February 2009 has
   expanded the oversight and ability to respond in a timely manner.
   Additionally, implementation of the dunning procedure described above
   significantly improved the timeliness of effort certification.

   Auditors’ Comments

   Delaware addressed our audit recommendation by establishing the Effort
   System Manger and implementing the dunning procedure that includes senior
   University officials addressed.

d. Require coordination between system development and grant management
   personnel for ongoing weaknesses as well as any future development.

   Delaware’s Response

   Development of a system-wide team of functional and technical staff is
   underway with responsibilities including oversight of system to ensure
   relevant data in the system comply with applicable regulations and policies.
   This team should be in place by the end of fiscal year 2010.

   Auditors’ Comments

   Once implemented, Delaware’s actions should address our audit
   recommendation.

e. Require sufficient system testing of the web-based development or
   reprogramming efforts prior to implementation.

                                    17
   Delaware’s Response

   Delaware believes the testing of this complex system had been extensive. The
   new Effort System Manager improved its response time in identifying and
   correcting system errors. Delaware expects that development of the system-
   wide team will conduct more comprehensive testing efforts and reduce data
   errors.

   Auditors’ Comments

   Delaware’s actions should address our audit recommendation.

f. Revise the University effort reporting periods and/or help certifiers better
   understand the percentages being certified to ensure more accurate reporting.

   Delaware’s Response

   Delaware prepared a plan to propose effort period changes to its cognizant
   agency (ONR) including creation of a separate reporting period for summer
   research activities.

   Auditors’ Comments

   Once accepted by its cognizant agency and implemented, Delaware’s actions
   should address our audit recommendation and reduce confusion over
   certifying effort for summer research activities.

g. Resolve the $34,299 in total questioned salary costs and the associated
   overhead costs (see Appendix A) resulting from improper charges for
   employee activity not directly benefiting NSF grants.

   Delaware’s Response

   Delaware disagrees with the findings related to $12,068 of the questioned
   salaries and the associated overhead costs for sample numbers 8, 16, and 24
   and will work with the appropriate authorities to resolve the questioned costs.

   Auditors’ Comments

   While Delaware’s plan to work with the appropriate authorities to resolve the
   questioned costs should address our audit recommendation, Delaware still
   needs to provide explanation for their disagreement over questioned salaries
   and the associated overhead costs for sample numbers 8, 16, and 24.




                                    18
                                   Appendix A

                         Schedule of FY 2008 Questioned Costs

   Sample                                          Fringe
   Number       Award Number Salary Costs         Benefits   Indirect Costs       Total
Administrative Time:
      8                      $         994    $              $                $
      22                             1,124
      22                               637
      23                               531
      24                             3,803
      30                               978
                                    8,067
Improper Charges:
      16                             3,520
      24                             9,935
                                   13,455

Total Questioned Costs       $     21,522     $              $                $




                                         19
Appendix B




    20
21
22
23
